June 14, 2007

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Use of Existing Postal Service-Owned Space in the Pacific
         Area (Report CA-AR-07-005)

This report presents the results of our audit on the use of existing U.S. Postal Service-
owned space in the Pacific Area (Project Number 06YG016FA000). This is our second
report on the use of existing Postal Service-owned space. We initiated this audit in
response to the U.S. Postal Service Transformation Plan's strategies to improve
management of its real estate assets.

Management has consolidated some Postal Service operations, leaving underutilized
and vacant space in Postal Service-owned facilities. The Postal Service could use
these and other such spaces to avoid future lease costs. This audit reviewed actions
taken by the Pacific Area to optimize underutilized and vacant space.

                                     Background
Facilities is an enabling organization within the Postal Service whose primary mission is
to (1) provide quality real estate and facilities products and services to meet present and
future needs of Postal Service organizations and (2) realize optimum value from
facilities assets and transactions. Facilities has its headquarters in Arlington, Virginia,
and has eight Facilities Services Offices (FSOs) throughout the country.

The FSOs accomplish the majority of the Postal Service’s facilities program work. This
includes planning, leasing, contracting and acquiring, designing, and constructing
facilities to house Postal Service operations. Organizational administration, policy and
procedure development, and realty asset management (RAM) functions are
administered from headquarters.
Use of Existing Postal-Owned Space in the                                     CA-AR-07-005
 Pacific Area


The RAM organization, located at Facilities Headquarters, provides internal expertise to
identify, analyze, and maximize the return on underutilized and excess real property
assets the Postal Service controls. This organization generates income from real estate
assets by developing Postal Service real property to its highest and best use, outleasing
excess Postal Service-owned space or subleasing excess leased space to
governmental and public tenants, and selling excess real property. RAM first offers
excess leased property to the General Services Administration, then to state and local
governments. If there is no government interest in the property, RAM offers it to the
public and private sectors, exercising care and good judgment to ensure the activities of
the tenants would not adversely affect operations or reflect negatively on the Postal
Service.

The Postal Service is to use the criteria contained in Administrative Support Manual
(ASM) 13, Chapter 5, Sections 13 and 517, to identify underused and vacant space.
These criteria stipulate that installation heads review the inventory of Postal Service-
owned property at least annually to determine whether there are any properties for
which there is no foreseeable need. In fiscal year (FY) 2005, the Postal Service issued
a national call regarding vacant and/or excess space and required a formal response,
including negative replies. This provided a standard format for annual reporting and a
method to submit additional excess space as it becomes available.

Management is to report excess space to headquarters through the Facilities Database
(FDB) System program. RAM relies upon installation heads to report excess space
through the “My Post Office” application within the Postal Service’s intranet. RAM then
contacts installation heads to obtain additional information about the reported space and
determine whether it fits the criteria for excess space. RAM downloads the information
from the Facilities Management System (FMS) in the form of the Vacant Space Report
and uses it to determine workload and to prioritize their efforts to market the excess
space.

As of June 22, 2006, the Postal Service owned 8,447 facilities. In addition, the Postal
Service leased 25,557 facilities totaling over 538 million square feet and spent over
$806 million on lease contracts annually.

                         Objective, Scope, and Methodology
The objective of the audit was to determine whether the Postal Service could realize
cost savings by optimizing underutilized and vacant space to avoid future leasing costs.
Specifically, we evaluated the procedures and systems the Postal Service uses to
identify underutilized and vacant space and whether it uses this information to
determine leasing needs. Our audit scope included underutilized, vacant, and leased
administrative space in the Pacific Area. We chose to focus our review on
administrative space because management can most easily move the administrative
departments to new locations. Through discussions with officials we learned that retail
units and processing and distribution centers (P&DC) are often problematic to move due



                                            2
Use of Existing Postal-Owned Space in the                                                      CA-AR-07-005
 Pacific Area


to service area concerns and the cost and effort involved in conforming new facilities to
Postal Service specifications.

To accomplish our objective, we reviewed documentation and applicable policies and
procedures. We also visited facilities and interviewed managers and employees. In
addition, we examined any other material deemed necessary to accomplish our audit
objectives. We conducted our work in the Pacific Area. We judgmentally selected one
district, the San Francisco District, within the Pacific Area to visit. We chose this district
because it had the greatest amount of underutilized and vacant administrative space in
the area.

We conducted this audit from April 2006 through June 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials on November 17, 2006, and
included their comments where appropriate.

A recent U.S. Postal Service Office of Inspector General (OIG) audit has identified
weaknesses in the computer systems we rely on for data.1 The audit team helped
alleviate those risks by using the FDB to help verify the data we received from the
Facilities Management System – Windows (FMSWIN). We relied on computer-
generated data from several Postal Service financial systems (including FMSWIN and
the FDB) after performing specific internal control tests on these systems’ data, to
include locations of specific Postal Service properties. For example, we verified
different facilities’ data by talking to Postal Service management and comparing the
data in the two computer systems.

                                      Prior Audit Coverage
Our review of the OIG’s prior audits disclosed information specifically related to the
survey objectives, although not necessarily specific to the Pacific Area. Over a period
of 5 years, there have been five reports directly related to the use of underutilized real
property and lease management.

        1. Audit Report – Use of Existing Postal-Owned Space in the Great Lakes Area
           (Report Number CA-AR-07-002, dated May 18, 2007). This report identified
           that the Great Lakes Area did not have formal procedures in place to track
           underutilized and vacant space. As a result, it was not possible for the audit
           team, or management, to identify all underutilized or vacant space and
           thereby determine whether the Postal Service could realize savings by
           avoiding future lease costs.


1
 Audit Report - Review of the Facilities Management System for Windows (Report Number IS-AR-02-003), dated
February 22, 2002.



                                                      3
Use of Existing Postal-Owned Space in the                                       CA-AR-07-005
 Pacific Area


        2. Management Advisory – Financial Opportunities of Underutilized Land
           (Report Number CA-MA-04-004, dated July 1, 2004). This report identified
           underutilized property and stated that policies and procedures do not exist to
           require identification of underutilized land at active facilities.

        3. Management Advisory – Realty Asset Management Program (Report Number
           CA-MA-04-002, dated January 9, 2004). This report revealed that the
           process for identifying and reporting excess facilities and vacant space
           needed improvement.

        4. Management Advisory – Management of Facility Lease Program (Report
           Number CA-MA-03-009, dated September 30, 2003). This report stated that
           FSO personnel did not always identify and document the condition of facilities
           prior to lease renewal. As a result, the Postal Service did not always have
           sufficient information available at lease renewal to effectively negotiate leases
           or resolve outstanding maintenance issues.

        5. Audit Report - Disposal of Excess Real Property (Report Number CA-AR-02-
           002, dated January 28, 2002). The audit identified 30 properties the Postal
           Service purchased for $45 million and did not develop, use, or refer for
           disposal.

                                            Results
The Pacific Area has several innovative methods for realizing cost savings by using
underutilized and vacant space to avoid future leasing costs, but could do more to
improve their procedures and communication on these initiatives. Because there is no
centralized system for tracking and managing vacant space throughout the Postal
Service, it is essential the Postal Service look for best practices and share them with the
areas.

Procedures for Optimizing Vacant and Underutilized Space

The Pacific Area employs two practices that can be considered best practices for the
U.S. Postal Service. The former Vice President, Pacific Area Operations, mandated
that FSO and Pacific Area officials check for available Postal Service-owned space for
use in lieu of leasing space in order to save costs. This requirement led the Pacific FSO
to search for vacant space at facilities within a specific radius in lieu of renewing a
current lease when presented with a renewal request.

As a result, Headquarters Facilities recently changed their Customer Services New
Space Procedure to require management in all areas to prepare a Customer Services
Facility Project Evaluation Form before each space acquisition. As part of this
procedure, the FSO is required to search for post offices or carrier annexes within a
specific radius before entering into a lease. The evaluation form includes current



                                               4
Use of Existing Postal-Owned Space in the                                                               CA-AR-07-005
 Pacific Area


project status, justification for replacing the current facility, Decision Analysis Report
(DAR) alternatives, and recommended action. The Area Capital Investment Committee
(CIC) is to review the form — along with a Start-Up Questionnaire and Space
Requirements Model — and the Vice President, Area Operations, is to approve it.
These new procedures are to be followed by the FSOs.

In addition, in 2001 the Pacific Area created the Excess Space Report to track excess
space and vacant land. The report consists of four Excel spreadsheets and is part of
the area’s initiative to reduce expenses by moving tenants into Postal Service-owned
space. Area personnel update this report annually at the close of the fiscal year, share
it with the FSO, and forward it to RAM, allowing for increased communication
throughout the Pacific Area and with headquarters.

We analyzed 24 administrative spaces in the Pacific Area and found that the Pacific
Area’s initiatives were generally effective in optimizing space, as 22 of the 24
administrative spaces were housed in Postal Service-owned facilities. The two
administrative offices still in leased space were the Oakland P&DC and the Pacific FSO.
According to the Pacific FSO, the Oakland P&DC space would prove difficult to replace
in that area.2 Prior to this audit, the Pacific FSO lease for 11,914 square feet of office
space was renewed. This was done at the request of the former Vice President of
Facilities who recommended keeping the FSO in its current location.

An analysis of available vacant space within the vicinity of the leased Pacific FSO
revealed sufficient space within the San Francisco Embarcadero Postal Center to move
the FSO and avoid future leasing costs. The Embarcadero Postal Center housed a total
of 77,258 square feet of available office/retail space. However, through interviews with
the San Francisco District’s Finance Manager and the Embarcadero Postal Center
Facilities Services Manager, we learned there were insufficient parking spaces for
tenants because the parking lot for the Embarcadero Postal Center had been sold to a
developer. At the time of this audit, the Postal Service was trying to negotiate for
250 parking spaces as part of the future development. Even with consideration for
additional parking spaces, moving the Pacific FSO to the Embarcadero Postal Center
and subleasing the FSO to avoid future leasing costs would save $500,821 over the
remaining life of the lease. However, management stated they are discussing the sale
of the Embarcadero Postal Center. As a result, we will not report $500,821 in funds put
to better use in our Semiannual Report to Congress at this time. If the future direction
for the sale of the Postal Center changes and administrative offices are moved into the
vacant space, we may follow-up to determine the actual cost savings associated with
that move.

Management generally performed adequate cost/benefit analyses during the lease
renewal process and documented them with eBuy printouts, Justification of Expenditure
(JOE) documents, DARs, Postal Service Forms 7437, Request for Services, Functional

2
    The P&DC is leased with an option to buy. In addition, the P&DC includes the Bay Valley District Offices.



                                                            5
Use of Existing Postal-Owned Space in the                                       CA-AR-07-005
 Pacific Area


Review Committee forms, and CIC minutes. The Pacific FSO provided examples of two
lease renewals performed in the area. During the lease renewal process, management
prepared JOEs, outlining the costs associated with renewal and possible alternatives to
renewing the leases.

Although the Pacific Area does encourage the reporting and use of underutilized and
vacant space to reduce leasing expenses, we learned management has not formalized
these procedures. When policies and procedures such as these are informal and
undocumented, underutilized or vacant space may not be consistently reported and put
to good use. Further, inconsistency in procedures can undermine Postal Service
Headquarters' efforts to collect information from areas and districts regarding
underutilized and vacant space.

Recommendation

We recommend the Vice President, Pacific Area Operations, and the Vice President,
Facilities:

    1. Formalize and document procedures for the Pacific Area to identify, track, and
       report underutilized and vacant space to Facilities Headquarters and to
       determine if there is vacant Postal Service-owned space available prior to lease
       renewal.

Management’s Comments

Management agreed with the recommendation in subsequent correspondence and
stated they believe there are numerous sources for obtaining information to identify and
track underutilized/vacant space. These sources include the FDB, eFMS (FMS Portal),
and the RAM-generated Vacant Space Report. They also stated areas must comply
with the FDB Headquarters coordinator’s directive to review data in every FDB
maintenance module at least once each year. Management will require this compliance
by March of every year. Management stated the FDB is the Postal Service’s national
database and it includes a real estate module, which specifically requests information
on each site’s vacant space, excess land, and any additional vacant property. As a
result, they believe the FDB is an already established national application and is a
better alternative to the Excess Space Report for tracking vacant/excess space.
Management also stated that, according to the headquarters FDB coordinator, a
Management Instruction (MI) for the FDB System is imminent. This MI will provide
uniform guidelines for all participants. The area plans to review an FDB report of
underutilized/vacant space provided by the FSO and contact appropriate sources if
issues are present.

Management also stated they are implementing a Facilities Condition Assessment
Program. Beginning in FY 2008, they will be in a position to inspect all facilities every 3
years. They plan to have updated excess space information for all Postal Service-



                                             6
Use of Existing Postal-Owned Space in the                                   CA-AR-07-005
 Pacific Area


owned facilities by FY 2011. Management’s comments, in their entirety, are included in
the appendix.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and actions taken and
planned should improve the tracking of identified underutilized and vacant space.
However, the primary purpose of the Facility Condition Assessments is to identify
maintenance and repair issues, and we are uncertain whether these assessments will
effectively identify underutilized space. The OIG plans to conduct future work in this
area to determine whether these assessments are effective in addressing the
identification of underutilized and vacant space.

Recommendation

We recommend the Vice President Operations, Pacific Area Operations, and the Vice
President, Facilities:

    2. Move the Pacific Facilities Services Office (FSO) to the Embarcadero Postal
       Center and sublease the FSO to avoid future leasing costs, thus saving $500,821
       over the remaining life of the lease.

Management’s Comments

Management did not agree with the recommendation and stated the Embarcadero
Postal Center developer is currently in discussions with RAM to purchase the facility.
Management asserted that moving the FSO to a building whose future is uncertain
would be disruptive to the FSO. Management further stated there is an abundance of
vacant lease space available in the general vicinity of the FSO, so subleasing may not
yield enough funds to cover the current lease. Management stated that the potential
liability to buy-out the current lease — which expires in 5 years — is XXXXXXXXX, and
that it would cost the Postal Service approximately XXXXXXXX per year for employee
parking. However, management stated that if the direction for the sale of the
Embarcadero Postal Center changes, the FSO would relocate after performing
appropriate cost-benefit analyses.

Evaluation of Management’s Comments

Management disagreed with recommendation 2, however, they base their comments,
partially, on their agreement to move the FSO into the Embarcadero Postal Center if the
direction for the sale of the property changes. Postal Service management is pursuing
the sale of the property while leaving open the option of implementing our
recommendation if they do not complete the sale. Additionally, the OIG did not evaluate
whether the sale of the Embarcadero Postal Center would be a cost-effective alternative




                                            7
Use of Existing Postal-Owned Space in the                                                             CA-AR-07-005
 Pacific Area


to relocating Postal Service administrative offices into the space. Therefore, we will not
pursue this recommendation through the formal audit resolution process.

Procedures for Reporting and Communicating Vacant Space

The Pacific Area’s Senior Budget Financial Analyst records underutilized and vacant
space in the Excess Space Report. Area personnel update the report annually, as
mandated by ASM 13, Chapter 5, Sections 513 and 517,3 share it with the Pacific Area
Finance Manager, and make it accessible to the Pacific FSO staff. The report is also
forwarded to RAM.

We found discrepancies in reported vacancy status between the information presented
in the area’s Excess Space Report and the vacant space information contained in the
FDB. Upon discussion with the Manager, Facility Services for the San Francisco
District, we determined that three properties listed on the area’s report contained errors
with regard to the status of the vacant space. This occurred because personnel in the
Pacific Area did not update the Excess Space Report on an annual basis. Also,
updates in the Excess Space Report were incomplete. Specifically, one property listing
had only one updated information field and another property listing had not been
updated in over 2 years.

While the Excess Space Report increases communication of available vacant space
between the area, FSO, and RAM, the inaccuracies and incomplete updates lessen the
reliability of the information for readers, potentially adversely affecting decisions made
based, wholly or in part, upon that information.

Recommendation

We recommend the Vice President, Pacific Area Operations:

    3. Establish written procedures to regularly update the Excess Space Report.

Management’s Comments

Management agreed with the recommendation in subsequent correspondence and
outlined a procedure to update the Excess Space Report. The report will be updated
with information from building inspections, reviewed with area leadership quarterly and
uploaded to the FSO website, which is linked to the area website. Management
identified the FSO Real Estate manager as having responsibility for tracking and
managing excess real property in the Pacific Area.



3
  ASM 13, Chapter 5, Section 513, page 6, and Section 517, page 10, require installation heads to review the
inventory of Postal Service-owned property at least annually to determine whether there are any properties for which
they have no foreseeable need and report it through the FDB System.



                                                          8
Use of Existing Postal-Owned Space in the                                   CA-AR-07-005
 Pacific Area


Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and actions taken
should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy Whitcomb
Deputy Assistant Inspector General
 for Support Operations

cc:    Katherine S. Banks




                                            9
Use of Existing Postal-Owned Space in the             CA-AR-07-005
 Pacific Area


                    APPENDIX. MANAGEMENT’S COMMENTS




                                            10
Use of Existing Postal-Owned Space in the        CA-AR-07-005
 Pacific Area




                                            11
Use of Existing Postal-Owned Space in the        CA-AR-07-005
 Pacific Area




                                            12
